UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-3503

Daniel Cvijanovich
Plaintiff - Appellant
v.
United States Secret Service
Defendant - Appellee
Appeal from U.S. District Court for the District of North Dakota - Fargo
(3:18-CV-00220-ARS)
JUDGMENT

Before BENTON, SHEPHERD, and GRASZ, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
May 29, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-3503

Page: 1

Date Filed: 05/29/2020 Entry ID: 4918110

®mteb States Court of Appeals
jfor tlje Cigljtf) Circuit

No. 19-3503

Daniel Cvijanovich
Plaintiff - Appellant
v.
United States Secret Service
Defendant - Appellee

Appeal from United States District Court
for the District of North Dakota - Fargo

Submitted: May 26, 2020
Filed: May 29, 2020
[Unpublished]

Before BENTON, SHEPHERD, and GRASZ, Circuit Judges.

PER CURIAM.

Appellate Case: 19-3503

Page: 1

Date Filed: 05/29/2020 Entry ID: 4918102

(

Daniel Cvijanovich appeals the district court’s' adverse grant of summary
judgment in his pro se Freedom of Information Act (FOIA) action. After a careful
review, we conclude that the district court did not abuse its discretion in declining to
review the requested unredacted documents in camera, see Peltier v. Fed. Bureau of
Investigation, 563 F.3d 754, 759 (8th Cir. 2009) (decision to perform in camera
inspection is reviewed for abuse of discretion; in camera review should be limited as
it is contrary to the traditional judicial role of deciding issues in an adversarial context
upon evidence produced openly in court); and did not err in granting summary
judgment, see Madel v. United States Dep ’t of Justice, 784 F.3d 448, 451 (8th Cir.
-2015) (grant of summary judgment is reviewed de novo; summary judgment is
appropriate where an agency proves that it has fully discharged its obligations under
FOIA). Accordingly, we affirm. See 8th Cir. R. 47B.

'The Honorable Alice R. Senechal, United States Magistrate Judge for the
District of North Dakota, to whom the case was referred for final disposition by
consent of the parties pursuant to 28 U.S.C. § 636(c).
-2-

Local AQ450(rev.5A0)

United States District Court
District ofNorth Dakota
Daniel Cvijanovich,
Plaintiff,

JUDGMENT IN A CIVIL CASE

vs.
United States Secret Service,

Case No.

3:18-cv-220

Defendant.

| | Jury Verdict. This action came before the Court for a trial by jury.. The issues have been tried and the jury has rendered its
verdict.
| | Decision by Court. This action came to trial or hearing before the Court The issues have been tried or heard and a decision has
been rendered.
[2 Decision on Motion. This action came before the Court on motion. The issues have been considered and a decision rendered.
| | Stipulation. This action came before the court on motion of the parties. The issues have been resolved.
| | Dismissal. This action was voluntarily dismissed by Plaintiff pursuant to Fed. R. Civ. P. 41(a)(l)(ii).
IT IS ORDERED AND ADJUDGED:
Pursuant to the Order filed on September 25,2019, the Court finds the Secret Service met the requirements
. of all claimed FOIA exemptions and need not disclose any further records. The Secret Service’s motion for
summary judgment, (Doc, 24), is GRANTED.

Date; September 25,2019

ROBERT J. ANSLEY, CLERK OF COURT
by: /s/ Jackie Stewart, Deputy Clerk

\
\

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Daniel Cvijanovich,
Plaintiff,
vs.

,

United States Secret Service,
Defendant.

)
)
)
)
)
)
)
)
)

Case No. 3:i8-cv-220
ORDER

Plaintiff Daniel Cvijanovich brings this suit against the United States Secret
Service pursuant to the Freedom of Information Act (FOIA), 5 U.S.C. § 552, seeking
records concerning himself. (Doc. 1). The Secret Service moves for summary judgment,
asserting records it has not yet disclosed are exempt under FOIA. (Doc. 24).
Background
The Freedom of Information Act was passed to allow public access to federal
government documents and records. 15 Federal Procedure, Lawyers Edition § 38:1
(2019). Under FOIA, federal agencies must release any properly requested information
unless a FOIA exemption applies. Id. The statute requires agencies to designate and
publish contact information for officers to whom the public may direct requests for
information. Id. § 38:609. Generally, agencies must establish detailed criteria that their
Freedom of Information Officers are to follow, id. § 38:319, and they must allow
. administrative review of any denial of an information request, id § 38:352.
The Secret Service is a federal agency charged with protecting the President and
Vice President of the United States, their families, and other designated protectees. (See
Doc. 26, p. 7; 18 U.S.C. § 3056). The Secret Service began investigating Cvijanovich in
March 2006 after an anonymous post to a Federal Bureau of Investigation website

claimed Cvijanovich wanted to assassinate then-President George W. Bush. (Doc. 26,
p. 9). That posting also claimed Cvijanovich was responsible for damage to a post office
building in 2001. In connection with the post office incident, an indictment charged
Cvijanovich with damage to government property, threatening to assault a federal
official, and mailing threatening communications. Id. at 10. In 2006, Cvijanovich
pleaded guilty to those charges and was sentenced to a prison term followed by
supervised release. (Dkt. 3:o6-cr-44,16; Dkt. 3:o6-cr-44,24). In 2007, a federal grand
jury indicted Cvijanovich on three counts of making threats against the President.
Cvijanovich v. United States. No. 3:07-01-55,2011WL 2680485, at *1 (D.N.D. July 8,
2011). Later that same year, Cvijanovich was convicted of one of the three counts and
sentenced to another prison term. Id. In July 2011, because of a matter involving
credibility of a key government witness, the district judge vacated the 2007 conviction,
id. at 11, and the indictment was dismissed without re-trial, (Dkt. 3:07-cr-55,187).
According to the Secret Service, because of Cvijanovich’s past actions and mental
evaluations, the agency continues to monitor Cvijanovich “to ensure that one of its
protectees is not harmed by [him],” (Doc. 26, p. 11), and he is a subject of an active
protective intelligence investigation, (Doc. 25, p. 1). The details of that investigation are
described in a declaration of William J. Callahan, Deputy Director of the Secret Service.
(Doc. 26).
On December 1,2017, Cvijanovich requested “copies of all records pertain[ing] to
[himself] which are in the possession of the United States Secret Service.” (Doc. 1-2).
The Secret Service conducted a search of its Field Investigative Reporting System, “the
Secret Service’s central index for records related to new or existing cases and
investigations of crimes.” (Doc. 25, pp. 6-7). That search led to records relating to

2

Cvijanovich in the Protective Threat Management System, which holds “records related
to individual actors’ threatening behavior or incidents that may impact the Secret
Service’s mission,” and the Significant Case Database, an “application that allows users
to search for, create, and modify criminal investigative files.” (Id.; Doc. 26, pp. 2-3). On
April 9,2018, the Secret Service responded to Cvijanovich’s request, stating it had the
records he requested but those records were exempt from disclosure under 5 U.S.C.
§ 552(b)(7)(A). (Doc. 26, p. 3).
On June 4,2018, Cvijanovich administratively appealed. (Doc. 1-4). The Secret
Service responded on July 31,2018, reaffirming the records would be “withheld under
5 U.S.C. § 552(b)(7)(A) as release of [that] information could interfere with an ongoing
enforcement proceeding.” (Doc. 1-5). Cvijanovich challenged that determination and
filed in this court on October 30,2018.
After the present suit commenced, the Secret Service referred certain records
created prior to Cvijanovich’s 2007 conviction for review by the FBI and the Federal
Bureau of Prisons (BOP). (Doc. 26-6; Doc. 26-7; Doc. 26-8). On May 2,2019, the Secret
Service released over seven hundred pages of other redacted documents, with references
to seven specific exemptions claimed for those redactions, to Cvijanovich. (Doc. 27). The
Secret Service also provided a Vaughn index1 annotating its reasons for asserting each
exemption. (Doc. 26-10). After the Secret Service released the 700+ pages to
Cvijanovich, the FBI and BOP responded to the Secret Service’s referral by indicating
some documents were entirely exempt, some documents should be partially redacted,

1A Vaughn index is to include materials supporting the adequacy of a
government agency’s search for responsive materials along with separate, specific, and
adequate bases for claiming exemptions under FOIA. Vaughn v. Rosen. 484 F.2d 820
(D.D.C. 1973).
3

and some documents were non-exempt. (Doc. 32; Doc. 32-1; Doc. 32-2; Doc. 39; Doc.
39-1; Doc. 39-2). The non-exempt and partially redacted documents were released to
Cvijanovich. As to documents created after Cvijanovich’s 2007 conviction, the Secret
Service released court documents and news articles but withheld reports and mental
health information which were responsive to Cvijanovich’s request (Doc. 26, p. 12).
In an affidavit describing his interactions with the Secret Service since 2010,
Cvijanovich asserts Callahan’s description of his history with the Secret Service is
misleading and designed to make disclosure of the requested documents appear riskier
than it actually is. (Doc. 41, p. 1).
Standard of Review
Under FOIA, federal agencies must “make Government records available to the
public, subject to nine exemptions for specific categories of material.” Milner v. Dep’tof
Navy. 562 U.S. 562,564 (2011). Congress intended FOIA to apply broadly: “[FOIA]
seeks to permit access to official information long shielded unnecessarily from public
view and attempts to create a judicially enforceable public right to secure such
information from possibly unwilling official hands.” John Doe Agency v. John Doe
Corp.. 493 U.S. 146,151 (1989) (internal quotation marks omitted): see also Milner. 562
U.S. at 565. “[Although FOIA strongly favors prompt disclosure, its nine enumerated
exemptions are designed to protect those legitimate governmental and private interests
that might be harmed by release of certain types of information.” August v. FBI. 328
F.3d 697,699 (D.C. Cir. 2003) (internal quotation marks omitted).
Most FOIA cases are properly resolved on summary judgment. Bravton v. Office
of the U.S. Trade Representative. 641 F.3d 521,527 (D.C. Cir. 2011); Nielsen v. U.S.

4

Bureau of Land Mgmt., 252 F.R.D. 499,503 (D. Minn. 2008). The standard for
)

summary judgment motions in FOIA cases in the Eighth Circuit is well-developed:
[The court reviews] whether the record shows there is no genuine issue as
to any material fact and the moving party is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(c); Celotex Corp. v. Catrett 477 U.S. 317, 322-23
(1986). “Summary judgment is available to the defendant in a FOIA case
when the agency proves that it has fully discharged its obligations under
FOIA, after the underlying facts and the inferences to be drawn from them
are construed in the light most favorable to the FOIA requester.” Miller v.
United States Dep’t of State. 779 F.2d 1378,1382 (8th Cir.1985). To defeat
a motion for summary judgment, the nonmoving party “need only present
evidence from which a jury might return a verdict in his favor.” Anderson v.
Liberty Lobby. Inc.. 477 U.S. 242,257 (1986).
Miller v, USDA. 13 F.3d 260,262 (8th Cir. 1993).
The burden of proof in FOIA cases rests on the agency claiming exemptions:
“Unlike the review of other agency action that must be upheld if supported by
substantial evidence and not arbitrary or capricious, the FOIA expressly places the
burden ‘on the agency to sustain its action’ and directs the district courts to ‘determine
the matter de novo.’” DOJ v. Reporters Comm, for Freedom of Press. 489 U.S. 749,755
(1989) (quoting 5 U.S.C. § 552(a)(4)(B)). As another district court in this circuit recently
explained:
A District Court may grant summary judgment for the government based
solely on the information provided in affidavits or declarations when the
affidavits or declarations describe the justifications for nondisclosure with
reasonably specific detail, demonstrate that the information withheld
logically falls within the claimed exemption, and are not controverted by
either contrary evidence in the record nor by evidence of agency bad faith.
Bush v. USDA. No. 16-CV-4128,2017 WL 3568672, at *2 (N.D. Iowa Aug. 17,2017), affd
sub nom. Bush v. Risk Mgmt. Agency. USDA/RMA. 728 F. App’x 607 (8th Cir. 2018),
cert, denied sub nom. Bush v. USDA, Risk Mgmt. Agency. 139 S. Ct. 1200 (2019)
(internal citations and quotation marks omitted).

5

Discussion
As an initial matter, the court notes Cvijanovich does not question the adequacy
of the Secret Service’s search for the requested documents. As the Eighth Circuit stated,
“the search need only be reasonable, it does not have to be exhaustive.” Miller v. IT S.
Dep’t of State. 779 F.2d 1378,1383 (8th Cir. 1985). After review of the Secret Service’s
submitted records and declarations, the court finds its search was reasonable. (See Doc.
42, p. 2 n.2).

Nor does Cvijanovich challenge the Secret Service’s claimed exemptions under
5 U.S.C. §§ 552(b)(3) (grand juiy information), (b)(6) (personnel, medical, and similar
files), (b)(7)(C) (invasion of personal privacy), and (b)(7)(D) (confidential source
identities), or its segregation and disclosure of non-exempt, pre-conviction information.
(See Doc. 42, p. 2 n.2). The court discusses each of the other claimed exemptions below.
Cvijanovich asks that the court conduct an in-camera review of the documents
over which the Secret Service asserts FOIA exemptions. The Eighth Circuit has held that
in-camera review “should be limited, for it is contrary to the traditional judicial role of
deciding issues in an adversarial context upon evidence produced openly in court.”
Peltier v. FBI. 563 F.3d 754,759 (8th Cir. 2009) (internal quotation marks omitted).
The court is to use in-camera examination of exempted records primarily “as an aid in
determining whether the government’s affidavits are accurate and made in good faith.”
Id. Here, the court has conducted in-camera review of an ex parte declaration by
Callahan, (see Doc. 28), and is satisfied with its accuracy. Cvijanovich has not suggested
the Secret Service’s claims are not made in good faith.
1.

Exemption (b)(5): Attorney-Client, Work Product, and Deliberative
Process
FOIA Exemption (b)(5) applies to:
6

inter-agency or intra-agency memorandums or letters that would not be
available by law to a party other than an agency in litigation with the agency,
provided that the deliberative process privilege shall not apply to records
created 25 years or more before the date on which the records were
requested.
5 U.S.C. § 552(b)(5). “Exemption [(b)(5)] was intended to allow an agency to withhold
intra-agency memoranda which would not be routinely disclosed to a private party
through the discovery process in litigation with the agency.” United States v. Weber
Aircraft Corp.. 465 U.S. 792,799-800 (1984). “Exemption [(b)(5)] covers records that
would be normally privileged in the civil discovery context. The exemption allows the
government to withhold records from FOIA disclosure under at least three privileges:
the deliberative-process privilege, the attorney-client privilege, and the attorney workproduct privilege.” Nat’l Ass’n of Criminal Def. Lawyers v. DOJ Exec. Office for U.S.
Att’vs. 844 F.3d 246, 249 (D.C. Cir. 2016) (internal citation omitted).
Citing Weber. 465 U.S. at 799-800, Cvijanovich argues the Secret Service cannot
apply Exemption (b)(5) to records of a “criminal prosecution.that is long complete or to
a once-contemplated prosecution that is no longer permitted,” asserting the exemption
applies only to deliberation and communication in anticipation of civil litigation. (Doc.
41, pp. 1-2). The Secret Service argues Weber uses the framework of civil litigation to
describe the types of protected information rather than holding information must have
been prepared in connection with civil litigation in order to be exempted. The court
agrees with this interpretation.
Exemption (b)(5) applies to law enforcement agency “records including]
research and analysis, as well as recommendations about possible courses of action,
created in preparation for criminal prosecution.” Ellis v. DOJ. 110 F. Supp. 3d 99,109
(D.D.C. 2015) (collecting cases). The District of Columbia trial court affirmed
7

application of the exemption in the specific context of Secret Service investigatory
records: “[T]he opinions and evaluations of Special Agents concerning the plaintiffs and
other parties’ level[s] of threat to Secret Service protectees that were made prior to the
initiation of any criminal proceedings ... fall within Exemption [(b)(5)]’s deliberativeprocess protection.” Dorsettv. U.S. Dep’t of Treasury. 307 F. Supp. 2d 28,37-38 (D.D.C.
2004).

Cvijanovich also argues Exemption (b)(5) “never applies to criminal or
prosecutorial attorney-client privilege, work product, or deliberative process, unless
there is a pending or at least possible prosecution.” (Doc. 41, p. 2). However, as the
Secret Service points out, the Supreme Court has held Exemption (b)(5) applies
regardless of the pendency of litigation: “under Exemption (b)(5), attorney workproduct is exempt from mandatory disclosure without regard to the status of the
litigation for which it was prepared.” FTC v. Grolier Inc.. 462 U.S. 19,28 (1983).
Lastly, Cvijanovich argues documents discoverable in previous criminal
proceedings are not subject to Exemption (b)(5). (Doc. 41, p. 2). As examples of alleged
over-exemption /by the Secret Service, he points to documents that might have been
discoverable, such as a letter from Secret Service personnel to the United States
Attorney for this district, (Doc. 27-3, pp. 24-34) or that were previously disclosed to
him, such as his own psychiatric records, (Doc. 27-2, pp. 101-120; see Doc. 41-1, p. 2).
The Supreme Court has held that a document may be exempted from disclosure under
FOIA even if it was discoverable in previous litigation. Grolier. 462 U.S. at 28.
Moreover, the distinction between criminal and civil proceedings is significant:
“[Djisclosure in criminal trials is based on different legal standards than disclosure
under FOIA, which turns on whether a document would usually be discoverable in a
8

<

civil case. Similar documents, in other words, are not—indeed must not be—treated
similarly in the two different types of proceedings.” Williams & Connolly v. SEC. 662
F.3d 1240,1245 (D.C. Cir. 2011). As the court in Williams & Connolly further explained,
“FOIA is neither a substitute for criminal discovery nor an appropriate means to
vindicate discovery abuses.” Id, (internal citations omitted). Thus, even if Cvijanovich
might have received or did receive documents via discovery in a previous criminal
proceeding, FOIA does not mandate their disclosure because the two processes are
based on different rationales. See Pike v. DOJ, 306 F. Supp. 3d 400,410 (D.D.C. 2016).
(“A party who is seeking disclosure of previously released information [under FOIA) is
entitled to receive no more than what is publicly available.” (emphasis added)).
The court finds the Secret Service has demonstrated the records it has identified
logically fall within Exemption (b)(5). See Bush. 2017 WL 3568672, at *2.
2.

Exemption (b)(7)(E): Sensitive Law-Enforcement Techniques and
Guidelines
Exemption (b)(7)(E) applies to:
records or information compiled for law enforcement purposes, but only to
the extent that the production of such law enforcement records or
information ... would disclose techniques and procedures for law
enforcement investigations or prosecutions, or would disclose guidelines
for law enforcement investigations or prosecutions if such disclosure could
reasonably be expected to risk circumvention of the law.

5 U.S.C. § 552(b)(7)(E). To meet Exemption (b)(7)(E), an agency must first demonstrate
the records were “compiled for law enforcement purposes.” Id.; sge Kuehnert v. FBI.
620 F.2d 662,666-67 (8th Cir. 1980) (“Because the documents here in issue comprise
investigatory records of a criminal law enforcement agency, we hold that they meet
exemption [(b) (7)]’s threshold requirement of having been ‘compiled for law
enforcement purposes.’”). Cvijanovich does not assert the records at issue do not meet

9

this requirement, and it is clear to the court from the Callahan declaration and exhibits
that the records pass this threshold. (See Doc. 27; Doc. 27-1 to -4; Doc. 28).
Cvijanovich asserts the records he seeks apply only to himself and argues the
“Secret Service has not explained how any of these files could be used by the plaintiff or
anyone else to reconstruct techniques with any specificity or in any way that would
hamper the Secret Service’s efforts.” (Doc. 41, p. 3). He points to the public
dissemination of the agency’s Exceptional Case Study Project and papers based on that
study. Id, The Secret Service argues the documents to which Cvijanovich refers are over
twenty years old and the Service’s law enforcement techniques have changed over time.
(Doc. 42, p. 6).
The Secret Service argues “[tjhere is no principle... that requires an agency to
release all details concerning [its] techniques simply because some aspects of them are
known to the public.” Barnard v. Dep’t of Homeland Sec.. 598 F. Supp. 2d 1,23 (D.D.C.
2009). However, “materials normally immunized from disclosure under FOIA lose their
protective cloak once disclosed and preserved in a permanent public record.” Muslim
Advocates v. DOJ. 833 F. Supp. 2d 92,105 (D.D.C. 2011). A plaintiff bears the burden to
show “specific information in the public domain that appears to duplicate that being
withheld.” Id. at 102. The Exceptional Case Study to which Cvijanovich refers is a
research report published in January of 2000; it is preceded by a disclaimer: “The
findings, conclusions, and opinions expressed in this document are those of the authors
and do not necessarily reflect the official position or policies of the U.S. Department of
Justice or the U.S. Department of the Treasury.” Robert A. Fein and Bryan Vossekuil,
Protective Intelligence and Threat Assessment Investigations (U.S. DOJ January 2000),
www.ncirs.gov/pdffilesi/nij/i7QQ8i.pdf. While this document fulfills the “permanent
10

public record” aspect of the public domain doctrine, see Dubuque v. U.S. Dep’t of the Air
Force, No. 4:16 CV1244,2017 WL 5132666, at *5 (E.D. Mo. Nov. 6,2017), it is not a
duplicate of the information Cvijanovich seeks from the Secret Service. In the context of
Exemption (b)(7)(E), the court concludes the public domain doctrine does not apply to
records of a specific individual unless those identical records are reproduced in a
permanent, public way.
The Secret Service further argues that disclosure of the documents over which it
claims a (b)(7)(E) exemption would reveal “how Secret Service protective measures and
techniques are applied in practice.” (Doc. 42, p. 6). Another federal trial court recently
held, “The purpose of Exemption [(b)(7)(E)] is to prevent the public from learning about
the existence of confidential law enforcement techniques, not to prevent it from learning
about the use of already-disclosed law enforcement techniques.” Shapiro v. DOJ. 153 F.
Supp. 3d 253,273 (D.D.C. 2016) (emphasis added). It is not unreasonable to expect that
a member of the public could extrapolate substantial information about the Secret
Service’s confidential techniques and protective measures from Cvijanovich’s recent
records. (See Doc. 26, pp. 18-19). Given the intention of the exemption, as stated in
Shapiro, the Secret Service has demonstrated the records at issue logically fall within
Exemption (b)(7)(E). See Bush. 2017 WL 3568672, at *2.
3.

Exemption (b)(7)(F): Danger to Life or Safely of an Individual
Exemption (b)(7)(F) applies to “records or information compiled for law

enforcement purposes, but only to the extent that the production of such law
enforcement records or information... could reasonably be expected to endanger the
life or physical safety of any individual.” 5 U.S.C. § 552(b)(7)(F).

11

Cvijanovich argues he has “long been aware of the identities” of the agent,
inmates, and person who brought him to the Secret Service’s attention in 2006 and
states he “has never assaulted, threatened, or otherwise attempted to retaliate against
any of these people, and he has no recent history of arrest for any crime.” (Doc. 41, p. 4).
Cvijanovich argues “the idea that Die] might now choose to attack some new person over
some comparatively minor cooperation with the Secret Service is ludicrous and frankly
offensive.” Id. He asserts the FBI does not agree with the Secret Service’s asserted
(b)(7)(F) exemption as to certain records, but he does not explain how any difference in
exemptions identified by the two agencies should influence the court’s decision. (See
Doc. 32-2, p. 2)
In support of the claimed (b)(7)(F) exemption, the ex parte Callahan declaration
detailed several concerns for the life and safety of individuals. (Doc. 28, pp. 13-16).
Agency affidavits receive substantial weight if they include more than barren assertions
that a document is exempt. Madel v. DOJ. 784 F.3d 448,452 (8th Cir. 2015); see also
Dubuque. 2017 WL 5132666, at *4 (“An agency may use affidavits to explain why an
exemption applies, which courts will accept as credible in the absence of bad faith.”).
The court agrees with the Secret Service’s assessment; moreover, Cvijanovich’s personal
knowledge or prior access to the records is not a cognizable counter to a FOIA
exemption. Cvijanovich has not provided evidence of bad faith on the part of the Secret
Service, and its affidavits are “relatively detailed and non-conclusory,” with sufficient
justification for non-disclosure. See Manning v. DOJ. 243 F. Supp. 3d 26,31 (D.D.C.
2017). Thus, the Secret Service demonstrated the records at issue logically fall within
Exemption (b)(7)(F). See Bush. 2017 WL 3568672, at *2.

12

4.

Exemption (b)(7)(A): Records Related to a Law Enforcement
Proceeding with Potential to Harm that Proceeding Upon Release
FOIA exemption (b)(7)(A) applies to “records or information compiled for law

enforcement purposes, but only to the extent that the production of such law
enforcement records or information... could reasonably be expected to interfere with
enforcement proceedings.” 5 U.S.C. § 552(b)(7)(A).
An agency must show two elements supporting application of Exemption
(b)(7)(A): (1) a pending or prospective law enforcement proceeding, and (2) some
articulable harm expected to be caused by disclosure of the information. Ameren Mo. v.
EPA, 897 F. Supp. 2d 802,810-12 (E.D. Mo. 2012). The Eighth Circuit has described a
primary purpose behind the exemption as preventing harm to an agency’s case by
blocking “earlier or greater access to agency investigatory files than [plaintiffs] would
otherwise have.” Bamevv. IRS. 618 F.2d 1268,1273 (8th Cir. 1980) (internal quotation
marks omitted). Articulable harm may include advance access to the government’s case,
witness tampering, destruction of evidence, or creation of false alibis. Ameren. 897 F.
Supp. 2d at 810-811. “Under exemption [(b)(7)(A),] the government is not required to
make a specific factual showing with respect to each withheld document that disclosure
would actually interfere with a particular enforcement proceeding.” Bamev. 618 F.2d at
1273. Though courts are to “give deference to an agency’s predictive judgment of the
harm that will result from disclosure of information, it is not sufficient for the agency to
simply assert that disclosure will interfere with enforcement proceedings; it must rather
demonstrate how disclosure will do so.” Citizens for Responsibility & Ethics in Wash, v.
DOJ. 746 F.3d 1082,1098 (D.C. Cir. 2014) (internal citation and quotation marks
omitted). The Fifth Circuit’s decision in Moorefield v. U.S. Secret Service. 611 F.2d 1021
(5th Cir. 1980), is especially instructive: Moorefield was twice convicted of threatening
13

to kill the president and brought a FOIA case to obtain records of the Secret Service’s
investigation, but the court found his records “sensitive; all constitute investigative
matter that assists the [Secret] Service in its efforts to keep track of Moorefield and
preclude his harming a [Secret] Service protectee.” Moorefield. 611 F.2d at 1026. The
Fifth Circuit distinguished the work of the Secret Service from that of other law
enforcement agencies because it “does not conduct its routine investigations with a view
towards apprehending law-breakers and bringing them to justice.... Its job is to
[p]revent an attack from ever being made.” Id. at 1025.
Cvijanovich argues exemption (b)(7)(A) cannot apply because “no criminal,
administrative, or other adjudicatory proceeding is pending or contemplated.” (Doc. 41,
p. 5). However, the Callahan declaration states Cvijanovich remains the subject of an
active Secret Service investigation, (Doc. 26 pp. 9,11-12), fulfilling the first element of
the exemption. That declaration also states two categories of documents—reports and
mental health records—are exempted along with some open source documents. Id. at
12-13. The declaration explains that disclosure of reports “would severely jeopardize the
investigation by providing Cvijanovich with the ability to elude detection or suppress or
fabricate information” and that disclosure of mental health records would “impact the
Secret Service's ability to continue to assess the risk he poses as [Cvijanovich] would be
able to circumvent [the Secret Service’s] techniques and/or intentionally deceive.” IcL at
13-14. The ex parte Callahan declaration includes sufficiently detailed articulable harm
supporting exemption of the stated open source records. (Doc. 28, p. 21). Thus, the

14

Secret Service demonstrated the records at issue logically fall within Exemption
(b)(7)(A).2 See Bush. 2017 WL 3568672, at *2
Conclusion
The Secret Service has demonstrated the records at issue logically fall within
FOIA exemptions (b)(5) (work product and deliberative process), (b)(7)(E) (sensitive
law enforcement techniques), (b)(7)(F) (danger to life or safety of any individual), and
(b)(7)(A) (potential harm to pending law enforcement proceeding). See 5 U.S.C. § 552;
lush, 2017 WL 3568672, at *2. Cvijanovich does not challenge the Secret Service’s
claimed exemptions under (b)(3) (grand jury information), (b)(6) (personnel, medical,
and similar files), (b)(7)(C) (invasion of personal privacy), or (b)(7)(D) (confidential
source identities). Although the Eighth Circuit has held “[o]nly one exemption is
necessary for redaction [under FOIA],” Hulstein v. PEA. 671 F.3d 690,695 n.2 (8th Cir.
2012), the court finds the Secret Service met the requirements of all claimed FOIA
exemptions and need not disclose any further records. The Secret Service’s motion for
summaiy judgment, (Doc. 24), is GRANTED.
JUDGMENT SHALL BE ENTERED ACCORDINGLY.
Dated this 25th day of September, 2019.
/s/ Alice R. Senechal
Alice R. Senechal
United States Magistrate Judge

2 The Secret Service acknowledges that exemption (b)(7)(A) will no longer apply
when the pending investigation of Cvijanovich concludes, though it asserts other FOIA
exemptions may continue to apply. (Doc. 26, p. 14).
15

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3503
Daniel Cvijanovich
Appellant
v.
United States Secret Service
Appellee

Appeal from U.S. District Court for the District of North Dakota - Fargo
(3:18-CV-00220-ARS)
ORDER
The petition for rehearing by the panel is denied.
July 23,2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

DEPARTMENT OF HOMELAND SECURITY
UNITED STATES SECRET SERVICE
WASHINGTON, D.C. 20223

Freedom of Information Act & Privacy Act Program
Communications Center
245 Murray Lane, S.W., Building T-5
Washington, DC. 20223
Date:
APR

9 2018

Daniel Cvijanovich
2433 20th Avenue South, Apt 305
Fargo, North Dakota 58103
File Number: 20180376
Dear Requester
This letter is intended to acknowledge die receipt of your recent Freedom of Information
Act/PriyacyActs (FOIA/PA) request, received by the United States Secret Service (Secret Service)
on December 15,2017, for information pertaining to Daniel Cvijanovich.
With regard to your request to have access to your file, we regret to inform you that we cannot comply.
Undo* provisions of die FOIA, there are no records or documents available to you at this time.
Pursuant to 5 U.S.C. 552(B)(7)(A), your file is being exempted since disclosure could reasonably be
expected to interfere with enforcement proceedings. The citation of the above exemption is not to be
construed as the only exemption Much may be available under the FOLA.
If you deem our decision an adverse determination, you may exercise your appeal rights. Should you
wish to file an administrative appeal, your appeal should be made in writing and received within sixty
(60) days of die date of this letter, by writing to: Freedom of Information Appeal, Deputy Director,
U S. Secret Service, Communications Center, 245 Murray Lane, S.W., Building T-5, Washington,
D.C. 20223. If you choose to file an administrative appeal, please explain the basis of your appeal and
reference the case number listed above.
Please use the file number indicated above in all future correspondence with this office.
Sincerely,

Special Agent In Charge
Freedom of Information Act & Privacy Act Officer

U.S. Department of Homeland Security

UNITED STATES SECRET SERVICE
JUL 3 12018

Daniel Cvijanovich
2433 20,h Ave S.
Apt. 305
Fargo, ND 58103
Re:

-

Freedom of Information Act Appeal - File Number 20180376

Dear Mr. Cvijanovich:
Reference is made to your recent appeal letter, received by the United States Secret
Service (Secret Service) on July 3,2018, through which you appeal the determination of Special
Agent in Charge (SAIC) Kim Campbell, Secret Service Freedom of Information and Privacy
Acts Officer, regarding the above referenced request.
A review of the responsive records concluded that they are subject to the Privacy Act of
1974, 5 U.S.C. § 552a (Privacy Act), but that they are exempt from the access provisions of the
Privacy Act. The records that pertain to you are maintained in the Secret Service Protection
Information System, DHS/USSS-004. This system is exempt from the access and amendment
provisions of the Privacy Act pursuant to 5 U. S.C, § 552a (j)(2), (k)(l), (k)(2), and (k)(3).
Therefore, no records are available to you under the Privacy Act.
As no records are available to you under the Privacy Act, these same records were
processed under the Freedom of Information Act (FOIA). In the appeal review, it has been
determined that the responsive documents should continue to be withheld under
5 U.S.C, §552 (b)(7)(A) as release of this information could interfere with an ongoing ..
enforcement proceeding. Therefore, your appeal is denied.
Under federal law we are required, to advise you that any decision on appeal, is subject to
judicial review in the District Court in the district where the complainant resides, has a principal
place of business, or in which the agency records are situated, or in the District of Columbia.
Sincerely,

William J. Callahan
Deputy Director

